<html>
<title> - REAUTHORIZATION OF THE GREAT LAKES LEGACY ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
             REAUTHORIZATION OF THE GREAT LAKES LEGACY ACT

=======================================================================

                               (110-131)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                   U.S. GOVERNMENT PRINTING OFFICE
42-581 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN BOOZMAN, Arkansas
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               CONNIE MACK, Florida
STEVE KAGEN, Wisconsin               JOHN R. `RANDY' KUHL, Jr., New 
JERRY MCNERNEY, California, Vice     York
Chair                                CHARLES W. BOUSTANY, Jr., 
ELEANOR HOLMES NORTON, District of   Louisiana
Columbia                             JEAN SCHMIDT, Ohio
BOB FILNER, California               CANDICE S. MILLER, Michigan
ELLEN O. TAUSCHER, California        THELMA D. DRAKE, Virginia
MICHAEL E. CAPUANO, Massachusetts    ROBERT E. LATTA, Ohio
GRACE F. NAPOLITANO, California      JOHN L. MICA, Florida
MICHAEL A. ARCURI, New York            (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Cherry, Lieutenant Governor John D., State of Michigan...........     4
Davis, Cameron, President and CEO, Alliance for the Great Lakes..    21
Green, Emily, Director, Great Lakes Program, Sierra Club.........    21
Grumbles, Hon. Benjamin H., Assistant Administrator for Water, 
  United States Environmental Protection Agency..................     4
Gulezian, Gary, Director, Great Lakes National Program Office, 
  United States Environmental Protection Agency..................     4
Kuper, George H., President, Council of Great Lakes Industries...    21

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    32
Costello, Hon. Jerry F., of Illinois.............................    33
Kagen, Hon. Steve, of Wisconsin..................................    35
Mitchell, Hon. Harry E., of Arizona..............................    37

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Cherry, Jr., Hon. John D.........................................    38
Davis, Cameron...................................................    48
Green, Emily.....................................................    53
Grumbles, Hon. Benjamin H........................................    58
Kuper, George H..................................................    68

[GRAPHIC] [TIFF OMITTED] T2581.001

[GRAPHIC] [TIFF OMITTED] T2581.002

[GRAPHIC] [TIFF OMITTED] T2581.003

[GRAPHIC] [TIFF OMITTED] T2581.004

[GRAPHIC] [TIFF OMITTED] T2581.005

[GRAPHIC] [TIFF OMITTED] T2581.006

[GRAPHIC] [TIFF OMITTED] T2581.007

[GRAPHIC] [TIFF OMITTED] T2581.008



      HEARING ON THE REAUTHORIZATION OF THE GREAT LAKES LEGACY ACT

                              ----------                              


                        Wednesday, May 21, 2008

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. The Committee will come to order.
    Good morning. Today, the Subcommittee will hear testimony 
on the reauthorization of the Great Lakes Legacy Act. This 
program aims to address the legacy of contaminated sediment 
that degrades water quality throughout the Great Lakes and 
threatens the health of populations who live in the region.
    The Great Lakes Legacy Act of 2002 was a good first step in 
addressing the contaminated sediment that despoils the water 
resources upon which a successful transformation of the region 
will depend. Introduced by Congressmen Ehlers and Oberstar, it 
is aimed to clean those many contaminated sites that have been 
largely overlooked by ongoing Federal toxic waste site cleanup 
efforts.
    Not only was the Superfund process perceived as slow, 
litigious and unwieldy, many contaminated sites in the Great 
Lakes Region were not included on the list of sites that would 
ultimately be addressed by the Superfund. Yet many of these 
sites were too large and too toxic for States and localities to 
deal with on their own.
    In addition to many, many communities throughout the Great 
Lakes Region were left with the chronically toxic effects of 
contaminated sediment that relegated their towns and peoples to 
health risks and economic under-achievement.
    The Great Lakes Legacy Act of 2002 sought to address these 
largely abandoned sites and Areas of Concern by providing a 
dedicated source of Federal funding for cleanup and 
remediation. This morning, we look to what has worked over the 
past five years with the Legacy Act, what challenges remain and 
how these can be addressed.
    The Legacy Act of 2002 authorized $50 million a year for 5 
years to clean up contaminated sediment of hazardous waste 
sites in 31 Areas of Concern. To this end, the program has been 
successful but only to a degree. Of the 31 Areas of Concern, 
one, Oswego Lake in New York, has been delisted.
    Cleanup has been completed at four sites. I want to 
highlight, however, this is a cleanup of only four sites, not 
four Areas of Concern.
    Many of the sites targeted by the original Legacy Act 
remain as they were in 2002, untouched and continuing to leach 
their toxic legacy into the lakes. Perhaps this is because the 
program has been consistently under-funded by the 
Administration over the past five years. Perhaps there are 
structural issues within the Legacy Act itself that need to be 
addressed.
    Nevertheless, the fact remains that ten Areas of Concern in 
Michigan, four in New York, one in Pennsylvania, three in Ohio 
and three in Wisconsin remain wholly unaddressed.
    Let me clear to my colleagues on the Subcommittee. The 
scientific record is very well established on the health 
impacts of these toxics on human populations. To be blunt, that 
so many hazardous waste sites remain unaddressed is a public 
health risk of the first order.
    As a former nurse, I can say with clear conviction that as 
a body we would be remiss if we did not find a way to clean 
these toxic hot spots at a far faster pace than we have over 
the past five years. We cannot shrink from our responsibility 
on this front.
    I look forward to hearing the testimony from our witnesses 
today in how we can improve the Legacy Act program.
    I yield to my colleague, Ranking Member Mr. Boozman.
    Mr. Boozman. Thank you very much, Madam Chair.
    I want to welcome all the witnesses today. I look forward 
to their testimony.
    I also want to commend Dr. Ehlers for his years of work 
with stakeholders from the Great Lakes to advance the Great 
Lakes Legacy Act. When I was appointed to this position, it 
probably was not five minutes later that Vern called and said, 
I need to meet with you regarding this. So, as always, he is 
very, very active.
    The Great Lakes are a vital resource for both the United 
States and Canada. The Great Lakes systems provide a waterway 
to move goods, a water supply for drinking, industrial and 
agricultural purposes, the source of hydroelectric power and 
swimming and other recreational activities, but the 
industrialization and development of the Great Lakes basins 
over the last 200 years has had an adverse effect on the Great 
Lakes.
    Although safe for drinking and swimming in many places, 
fish caught from the Great Lakes are not safe to eat. Lake 
sediments contaminated from the history of industrialization 
and development in the region are one of the primary causes of 
this problem.
    By treaty, the United States and Canada are developing 
cleanup plans for the Great Lakes and for specific Areas of 
Concern.
    The Great Lakes Legacy Act passed in 2002 has helped 
citizens restore the quality of the Great Lakes by taking 
action to manage contaminated sediments and to prevent further 
contamination. The Great Lakes Legacy Act authorized the 
Environmental Protection Agency to carry out qualified sediment 
remediation projects and conduct research and development of 
innovative approaches, technologies and techniques for the 
remediation of contaminated sediment in the Great Lakes.
    Legacy Act funding must be matched with at least 35 percent 
non-Federal share, encouraging local investment. By encouraging 
cooperative efforts through public-private partnerships, the 
Great Lakes Legacy Act provided a better way to address the 
problem of contaminated sediments.
    At some sites, removing sediments will be the best way to 
address short and long-term risk. At the other sites, the last 
thing we want to do is go in and stir up the contaminated 
sediments by dredging, causing more harm to the environment. 
Obviously, how to address contaminated sediments at each Great 
Lakes Areas of Concern will be very much a site-specific 
decision.
    The Great Lakes Legacy Act does not try to presume any 
particular cleanup action. It simply encourages stakeholders to 
take action and to make sure that the action they take will 
make a real improvement to human health and the environment.
    This legislation is strongly supported by both the 
environmental groups and business groups in the Great Lakes 
Region. The Great Lakes Legacy Act reflects a consensus 
approach to addressing sediment contamination in the Great 
Lakes.
    The authorization for the Great Lakes Legacy Act expires 
this year. Recently, the Act has been funded at a level between 
$22 million and $35 million per year.
    Today's hearing allow stakeholders to express their support 
for the Great Lakes Legacy Act and offer any suggestions to 
modify the Act. I look forward to hearing today's witnesses.
    In reading the testimony, I want to compliment you in the 
sense that it looks like that the stakeholders are working hard 
together and appear to be in consensus in much that we are 
going to hear today.
    I yield back, Madam Chair.
    Ms. Johnson. Thank you very much.
    Are there other opening statements? Yes, Mrs. Miller.
    Mrs. Miller. Thank you very much, Madam Chair, and I 
certainly appreciate your having this hearing today.
    I will enter my full statement for the record, but just 
briefly let me certainly welcome and recognize our Lieutenant 
Governor from the great State of Michigan. We work very closely 
together at the Federal and State levels and the local level as 
well to do everything we can to protect our magnificent Great 
Lakes.
    This Subcommittee, as you are aware, Madam Chair, just last 
week held a week actually in my district in the City of Port 
Huron, where we addressed the issue of water quality, and 
Chairman Oberstar came. It was a great hearing. I think much 
will come of it.
    In the Great Lakes, we think of the Great Lakes obviously 
as 20 percent, one-fifth of the fresh water supply of the 
entire planet, and all of us in Michigan do recognize the 
extraordinary work that remains to be done for restoration and 
maintenance of the Great Lakes. We love the Great Lakes, but we 
haven't treated it particularly well for many generations and 
so, as has been articulated already, many challenges facing the 
Great Lakes with industrial contamination, invasive species, 
the combined sewer overflows, et cetera.
    As people have said that the last century was perhaps about 
oil and this century is going to be about fresh water, we are 
certainly at the forefront of all of that.
    Again, we look at it as a national treasure. Certainly, it 
is long overdue that the Federal Government is recognizing what 
a national treasure it is and having the political will and the 
courage to stand up with their dollars as well and invest in 
this fantastic treasure.
    So, again, with that, I certainly look forward to the 
testimony of all the witnesses but want to recognize Lieutenant 
Governor Cherry for his participation as well.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you, Congresswoman Miller.
    We will now introduce our first panel. We have Lieutenant 
Governor John Cherry from the State of Michigan; the Honorable 
Benjamin Grumbles, Environmental Protection Agency, Assistant 
Administrator for Water; and Mr. Gary Gulezian, Director of the 
Great Lakes National Program Office for the EPA, Chicago.
    We will hear you as you were introduced. Thank you.

   TESTIMONY OF LIEUTENANT GOVERNOR JOHN D. CHERRY, STATE OF 
    MICHIGAN; THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
ADMINISTRATOR FOR WATER, UNITED STATES ENVIRONMENTAL PROTECTION 
   AGENCY; AND GARY GULEZIAN, DIRECTOR, GREAT LAKES NATIONAL 
 PROGRAM OFFICE, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY.

    Lieutenant Governor Cherry. Well, thank you, Chairwoman 
Johnson and Members of the Subcommittee on Water Resources and 
Environment.
    I am Lieutenant Governor John Cherry of the State of 
Michigan, and I appreciate this opportunity to share the 
perspectives of the State of Michigan and the Great Lakes 
Commission on the Great Lakes Legacy Act.
    I am honored to serve both as Michigan's Lieutenant 
Governor and Chair of the Great Lakes Commission. The 
Commission is a public agency established by the Great Lakes 
Basin Compact in 1955 to help the eight Great Lakes States 
speak with a unified voice and collectively fulfill a common 
vision.
    Let me begin by recognizing the Committee Members from the 
State of Michigan: Representatives Vern Ehlers and Candice 
Miller. I want to thank you and the other members of the Great 
Lakes Region for your support for the priorities for the Great 
Lakes.
    In particular, Congressman Ehlers, you have been a key 
champion for the Great Lakes, and it is because of your 
leadership in sponsoring the Great Lakes Legacy Act of 2002 
that we are here today reflecting on the success of this 
important program.
    The Committee's support for reauthorizing and strengthening 
the Great Lakes Legacy Act is a necessary step forward, 
advancing a strong agenda for the Great Lakes.
    I have submitted written testimony that I ask be made of 
the part of the record for today's hearing. The testimony 
includes the Great Lakes Commission's complete recommendations 
for reauthorizing and strengthening the Great Lakes Legacy Act.
    The Great Lakes are a unique and extraordinary natural 
resource for our region and the Nation as a whole. More than 32 
million Americans receive the benefits of the Great Lakes 
including drinking water, food, recreation, commercial 
navigation and water resources for industries and utilities.
    Public interest in restoring and protecting the Great Lakes 
is greater today than at, perhaps, any time in the past. The 
Great Lakes Region has united behind the Great Lakes Regional 
Collaboration Strategy to restore and protect the Great Lakes.
    As you know, Areas of Concern are the most heavily degraded 
areas of the Great Lakes. There are 31 U.S. and binational 
Areas of Concern including 14 in my home State of Michigan. 
Cleaning up these areas is a longstanding priority for the 
Great Lakes States.
    The Legacy Act has proven highly successful in these 
efforts. It has become a cornerstone of restoration efforts for 
the Areas of Concern. In Michigan alone, the Act has 
facilitated the cleanup of approximately 250,000 cubic yards of 
contaminated sediments, using $20 million in Legacy Act funds 
and leveraging nearly $13 million from State and local sources.
    The Great Lakes Commission has prepared detailed 
recommendations for reauthorizing the Legacy Act. I will 
mention three important highlights.
    Number one, increase the authorized funding level to $150 
million annually. This funding will better match the long-term 
cost of completing the remediation of contaminated sediments in 
the Areas of Concern which is projected to be between $1.5 
billion and $4.5 billion annually. I mean over time.
    Number two, allow the use of Legacy Act funds to restore 
habitat of cleanup sites. This is an appropriate use of Legacy 
Act funds that will facilitate the complete restoration and 
redevelopment of the site.
    Extend the life of appropriated Legacy Act funds beyond two 
years would be the third point. Given the lengthy and complex 
nature of sediment cleanups and the possibility of 
unanticipated delays, the two-year limit is inappropriate for 
the Legacy Act program.
    The Great Lakes States are united in their approach to a 
comprehensive restoration strategy. A recent study found that 
local governments alone are spending an estimated $15 billion 
each year on Great Lakes restoration and activities.
    Collectively, the Great Lakes States look to the Federal 
government to be a critical partner in restoring the Great 
Lakes. Reauthorizing, strengthening and, most importantly, 
fully funded the Legacy Act would be a significant step in this 
direction.
    Let me conclude by reminding the Committee that the Areas 
of Concern include communities and the rivers that run through 
them that helped win our Nation's wars and fueled our economic 
prosperity in the 20th Century. From the Buffalo River in New 
York to the Rouge River in Michigan to the Grand Cal River in 
Indiana, these are the rivers that suffered as our region and 
our Nation prospered.
    The Areas of Concern are the clearest legacy of our use and 
abuse of the Great Lakes. The Great Lakes will not be fully 
restored until these areas are restored. The Great Lakes Legacy 
Act is a key component of our strategy for restoring the Great 
Lakes.
    Thank you, Madam Chairman and Members of the Committee for 
your work on this important legislation. I welcome any 
questions you may have.
    Ms. Johnson. Thank you very much, Lieutenant Governor 
Cherry.
    Mr. Grumbles.
    Mr. Grumbles. Thank you, Madam Chair. It is great to be 
here and to be joined by Gary Gulezian, the Director of the 
Great Lakes National Program Office.
    It is great to see you, Congressman Boozman, in your 
position of leadership on the Water Subcommittee, and I am 
looking at congressional leaders in the Great Lakes. 
Congressman Ehlers, Congresswoman Miller, EPA appreciates your 
work, your leadership on this effort.
    Madam Chair, it is great to have the opportunity to discuss 
the successes to date as well as some of the challenges ahead. 
As you know, during this Administration, EPA has put a real 
priority behind protecting and restoring the Great Lakes and 
accelerating the restoration and protection of the Great Lakes. 
A key part of that is the Great Lakes Legacy Act.
    So the first thing I would like to do is to say that we 
believe that our major success to date has been the ability 
under the Act to accelerate the pace of sediment remediation in 
the lakes. Since 2004, when the first amount of funding was 
made available under the Act, we have remediated over 800,000 
cubic yards of sediment at a cost of almost $97 million.
    For these remediation projects, we provided $53 million in 
Legacy Act funding which, in turn, has leveraged $44 million in 
additional funds. That has allowed us to remove over 1.5 
million pounds of contaminants from the environment.
    It is a model that may be used well in other regions of the 
Country. It is about accelerating the pace of cleanup through 
innovation and collaboration, and that collaboration is based 
on partnerships. The 2002 Act envisioned stronger partnerships 
among the agencies and with the public and private sectors.
    EPA and other Federal agencies, such as the Army Corps of 
Engineers, have been working, providing efforts to get this 
environmental restoration underway. The Corps, in particular, 
has provided technical assistance and disposal capacity at 
their confined disposal facilities and working closely with 
State agencies and industry and local governments to get 
sediment remediated and to get environmental progress moving.
    Another key component that we urge the Committee to keep in 
mind is that the key to continued success is going to be the 
continued ability of non-Federal sponsors to provide the 
necessary cost share.
    Remediating the remaining contaminated sediments will cost 
in excess of $1 billion. While some of those cleanups will be 
accomplished through Superfund and other authorities, the 
potential demand for Legacy Act resources is expected to be 
high.
    Of course, how much we can utilize will be a function of 
and limited by the availability of the non-Federal match. So we 
think it is important to identify a non-Federal sponsor at 
these projects and to move forward because we won't be able to 
move forward if we are not able to identify non-Federal 
sponsors with the requisite cost share. It is all about 
leveraging, as you know.
    So we are looking forward to working with States and other 
interested parties to find creative ways to provide the 
necessary funding.
    Another major point to make is the polluter pays principle, 
and I know Congressman Ehlers, in particular, has been 
following this very closely.
    EPA continues to honor the polluter pays principle. It is a 
fundamental part of how we approach remediation in the Great 
Lakes. We believe that is a key principle to continue to 
follow.
    We also recognize that there are situations where there is 
an orphan share. There are situations where the projects, the 
key to accelerating the cleanup is by using the Legacy Act 
funding, using the authorities under the Legacy Act to help 
fill the gap to help make restoration possible.
    The Lieutenant Governor also mentioned the two-year life of 
funding as one of the key issues to focus in on. The two-year 
life of funds could be problematic. As in most cases, it takes 
time to conduct the necessary up-front work to get these very 
complex projects ready for implementation. So this time-
intensive up-front pre-remedial work is critical in order to 
conduct environmentally sound and fiscally responsible 
projects.
    The last point, Madam Chair, is to underscore the point 
that environmental cleanup is an economic engine for health and 
prosperity. Recent studies have shown that there is an economic 
benefit from contaminated sediment remediation. The Northeast 
Midwest Institute and others are identifying the savings that 
occur, the environmental benefits that occur, in fact, the 
economic benefits that occur when these sites are cleaned up.
    We agree with you that it is important to continue to use 
this authority as a way to accelerate cleanup and avoid costly 
debilitative litigation which has been something that has 
occurred in the past.
    So we look forward to working with you and others as 
legislative proposals are introduced and as the Committee moves 
forward on this very important and successful environmental 
statute.
    We would be happy to answer questions as you wish, 
Congresswoman. Thank you.
    Ms. Johnson. Thank you very much.
    I want to start a first round of questioning.
    Lieutenant Governor Cherry, in your view, what is the 
current capacity for potential non-Federal partners like State 
or local governments to contribute to the current cost share 
level of 35 percent?
    Lieutenant Governor Cherry. In the State of Michigan, I 
believe that we have been fortunate enough to be able to match 
that work that the EPA has approved to do. We have had the 
benefit of what we call the Clean Michigan Initiative, a bond 
proposal that was passed back, I believe, in 1998 that has 
allowed us to fund our match.
    All total throughout the Great Lakes Region, and this is 
through the eight Great Lakes States plus the two provinces of 
Canada through the St. Lawrence River, roughly $15 billion is 
spent annually by local units of government and the States on 
Great Lakes remediation.
    So I think that the funding would be challenging if we were 
on a schedule that would complete cleanup in 10 years, but my 
sense is that there is a public will to make those 
expenditures. At least that has been the case in the State of 
Michigan.
    I would think that if you were able to fund at $150 million 
a year over a 10-year period, the States would be probably able 
to match that, I would believe, as required.
    Ms. Johnson. Given the current economic climate and fiscal 
environment, what is your impression of the capacity for State 
and local governments to actually contribute to your 
recommended cost share of 25 percent?
    Lieutenant Governor Cherry. I think you have to be 
innovative as a State because your ongoing State budget is very 
constrained, particularly in the upper Midwest. So you have to 
be innovative.
    That is why the State of Michigan chose a bond route in 
which we floated a general obligation bond which gave us the 
working capital to match, to be an active partner with the 
Federal Government and our local units on remediation. That is 
how we would probably proceed in the future.
    So I think those States will have to be creative, but again 
I think the upper Midwest understands that we are in a new era 
of global economics and that we have to begin to understand 
what our priorities are. Our economy is very much based upon 
the Great Lakes and so as much an investment in the future as 
it is an ongoing expense.
    I would think you would find that the States and 
communities would rise to the occasion, utilize that kind of 
innovative funding that would allow them to have the capacity 
to meet the Federal Government in the cost share arrangements 
that we have.
    Ms. Johnson. In the State of Michigan, there are currently 
10 Areas of Concern that have not had any Legacy Act projects 
on them at all. Similar situations exist in nearly every other 
Great Lakes State. In your view, what is the reason for this 
and what has been done?
    What has been the biggest impediment to not cleaning up 
these sites or fulfilling these goals?
    Lieutenant Governor Cherry. Madam Chairwoman, it is my 
recollection that we have completed three or four sites as of 
today as it pertains to the State of Michigan, and I believe 
that we are active financially with every project that the EPA 
has proposed for those Areas of Concern in the State of 
Michigan.
    So, if anything, I think it is the Act as good as it is, 
and I want to say I believe the Act has moved things forward. I 
don't want to be critical of the Act, but I think the 
limitations have been the limitations within the Act itself.
    Ms. Johnson. You have done four. Have you used any kind of 
priority out of the 10 that have received no Federal funding to 
date?
    Lieutenant Governor Cherry. I believe that these proceed as 
a collaboration, and I think this is one of the good things of 
the Act. It does give a structure in which the EPA can work in 
a collaborative way with States and local units of government 
to establish the priorities for remediation, and I believe that 
what we have done to date has been a reflection of the 
collaborative efforts to decide with the EPA what the first 
priorities are.
    Ms. Johnson. Is it funding?
    Lieutenant Governor Cherry. I believe so. We have been able 
to match the funding that has been available to us to date. I 
think we could go further if we had more funding available to 
us.
    Ms. Johnson. You have indicated that there might be some 
shortcomings in the law. How would you suggest it be changed?
    Lieutenant Governor Cherry. I think one of the issues is 
the two-year limitation. As Mr. Grumbles pointed out, this is 
sometimes a lengthy process to determine what is actually there 
in an Area of Concern. So the actual process can drag out more 
than two years, and so I think the availability of that funding 
being secure would be terribly helpful in that respect.
    Additionally, the match level, I think, if it were reduced 
to 25 percent would allow us to engage. At least if it brought 
more Federal money into the picture, it would allow us to 
engage in more cleanups.
    I also believe that remediation should include, as well, 
restoration of the habitat. I mean much of this is done to 
encourage a healthy ecosystem, and so the habitat goes beyond 
just the removal of sediments. The securing of a riverbank and 
other aspects of the habitat are all part of the overall 
project.
    So to the extent that the Legacy Act could allow that, that 
would be helpful as well.
    Ms. Johnson. Thank you.
    Mr. Gulezian, in March of 2006, the Great Lakes National 
Program Office briefed the congressional staff on 
implementation of the Great Lakes Legacy Act. In that briefing, 
EPA identified potential impediments of the projects, and one 
of these impediments was a lack of available cost share.
    Now, in the current cost share of 35 percent, has it been 
an impediment?
    Mr. Gulezian. Cost share and having sufficient non-Federal 
funds to match the Federal funds is very important to moving 
forward with Legacy Act projects. To date, it has not been a 
problem in terms of utilizing the funds that we have received 
under the Legacy Act.
    In the future, it could be more of a problem. I really see 
that as one of our challenges in the coming years, to make sure 
that we have sufficient non-Federal cost share to make these 
projects a success.
    Mr. Grumbles. Congresswoman, I would just add that local 
and private industry investments are unlikely to be sufficient 
to make full use of the Federal funding that is provided. So 
State bond funds such as Michigan's Clean Michigan Initiative 
will be key to future success on meeting the cost share, which 
we feel is an extremely important principle of the Great Lakes 
Legacy Act just as it is for the Corps of Engineers Water 
Resources program.
    Ms. Johnson. What problem under the current circumstances 
do you see in accomplishing the goals of the future? Is it 
still going to be a shortage of share on each end, both ends or 
one end?
    Mr. Grumbles. Gary may want to elaborate on this some, but 
I think the key for us is following the priority system that is 
currently laid out in the statute and laid out well about 
focusing on remediation and also honoring the polluter pays 
principle and not providing some duplicative program or 
something that undermines the Superfund program when there are 
responsible parties.
    In the context of the funding in the future, I think for us 
a key part of it, Madam Chair, is to work with the authorizing 
Committees and the appropriations Committees to think about 
innovations, innovative approaches.
    The water enterprise bonds that aren't directly related to 
the Legacy Act but that we feel are the wave of the future when 
it comes to meeting Clean Water Act infrastructure needs is 
critically important to bring in more innovative funding, not 
to change the cost share that has worked well, we believe so 
far, but to remove barriers to potentially innovative 
approaches both at the Federal level and at the State level.
    Mr. Gulezian. On the issue of innovative funding and 
generating non-Federal cost share, I think the concept of 
return on investment really needs to be taken into account. On 
the economic valuation work that we have done at some of the 
Legacy Act sites such as Waukegan, we were able to estimate 
that there could be increases in property value in the City of 
Waukegan of $250 million were we to do a Legacy Act project 
that would cost about $30 million.
    If you look at non-Federal cost share, that would be $12 
million of the $30 million. The return on investment from 
property tax receipts from that kind of a property value 
increase would pay for that in just several years.
    So, to the extent that that kind of thing can be taken into 
account, it may be a way of generating non-Federal cost share 
through bonding.
    Ms. Johnson. Well, I understand that 76 million cubic yards 
of toxic sediment remain to be corrected. Is that your 
estimate?
    Mr. Gulezian. Based on the work of the regional 
collaboration where States and cities and nongovernmental 
organizations came together, some estimates were made of the 
remaining contaminated sediments within the Great Lakes Basin. 
The total amount that was estimated was on the order of 75 
million. We think, of that 75 million, approximately 40 million 
will need to be remediated in some way.
    Ms. Johnson. Mr. Grumbles, in your testimony, you note that 
EPA has successfully remediated 800,000 cubic yards of sediment 
over the past 4 years. What percentage of the total potential 
volume of contaminated sediment does this 800,000 cubic yards 
represent?
    Mr. Grumbles. Based on our current estimates, it is about 
10 percent.
    Ms. Johnson. So, based on these calculations at the current 
rate of Legacy Act funding recommended by this Administration, 
it seems that it will take over 300 years to accomplish that 
and to remove all the toxic sediment?
    Mr. Grumbles. You put a time frame on it, and I am not 
comfortable with making estimates like that.
    Ms. Johnson. I mean at the current funding level.
    Mr. Grumbles. What I am comfortable in saying is that we 
recognize, just like our non-Federal partners recognize, there 
is a tremendous amount of work that remains to be done, that 
the Great Lakes Legacy Act is an excellent framework for 
addressing some of the sediment problems. Existing 
environmental statutes like the Superfund statute or other 
regulatory authorities are also important ones.
    We think the key is not to view this as a public works 
project but as a public-private works project and to use 
authorities and continue to focus on streamlining the program 
under the Great Lakes Legacy Act and identifying the challenges 
ahead. Some of them are funding, but others are making sure 
that we can also see the environmental benefits and work with 
the communities on the concept of restoration and restoring the 
impaired biological, chemical and physical integrity of these 
special sites.
    Ms. Johnson. Yes. My concern is with the current situation 
of clean water supply in this Country. It seems to me that we 
could get into a public health problem if we could not move any 
more rapidly to clean these sediments out.
    Mr. Grumbles. As you know well and as Congresswoman Miller 
mentioned about the importance of water in the 21st Century, it 
really is the oil of the 21st Century.
    We see clean water as more than just an environmental 
protection issue. It is a public health issue, and that is why 
all of us, I think, are supportive of efforts to accelerate the 
pace of cleanup, using tools like the Great Lakes Legacy Act.
    It is a threat to public health over time. Particularly 
when you look at the water flow patterns within the Great 
Lakes, it is important to come up with ways to remediate or to 
prevent the spread of potential toxins that could pose a risk 
to public health.
    Ms. Johnson. Now I know that the U.S. shares some of this 
with Canada. What kind of cooperation has occurred there? Are 
the Canadians moving at a more rapid pace to remediate their 
contaminated sites than the U.S.?
    Mr. Gulezian. We have a strong cooperative program with 
Canada. There is a Binational Executive Committee where the 
U.S. agencies meet with the Canadian agencies, and we also have 
a Binational Toxic Strategy where we specifically review the 
progress that is made on both sides of the border in cleaning 
up contaminated sediments.
    The Canadians are making similar progress to us. These 
projects are complex. They are expensive. They have had some 
recent appropriations on their side to assist them with moving 
forward with their contaminated sediment problems.
    We learn from each other too in terms of how best to 
approach these problems.
    Ms. Johnson. You know we had a hearing on the Great Lakes 
here a couple of months or so ago, and there was testimony from 
one of the House Members that open sewage was being dumped from 
Detroit or somewhere in that area into the lake. How do you 
measure that with the rate of cleaning the sediment and it 
getting recontaminated or do you consider that accurate?
    Mr. Grumbles. The principle of pollution prevention is a 
key principle. That is why EPA has, for the last several years, 
been putting a priority in terms of our enforcement program, an 
enforcement priority on sewer overflows.
    In the Great Lakes, we know, based on the age of the 
systems and climate and various factors, that combined sewer 
overflows as well as sanitary sewer overflows is a threat to 
the health of the Great Lakes. It doesn't make the situation 
any easier in remediating contaminated sediment if you are not 
also working upstream in the watershed to reduce sewer 
overflows.
    We feel that it is a collaborative effort, and the Great 
Lakes strategy recognizes that sewer overflows is a key area, a 
priority, just like sediment remediation. The two need to be 
thought of together. So we are working with the States and we 
are working with the cities.
    It is not just a question of more Federal funding. It is a 
question fusing the various tools to improve the management of 
those community assets and to find financing ways based on 
rates, local rates and also State efforts to finance the 
upgrade of those systems so that the sewer overflows are 
reduced.
    We see progress, but it takes time. It takes years for 
these control plans to get developed and implemented.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Mr. Grumbles, one of the common threads from the testimony 
we are going to hear in a little bit and then also with Mr. 
Cherry's was this two-year problem that you mentioned in your 
testimony about having the two-year time frame. Can you talk a 
little bit more about that and maybe give us some examples of 
how that affects things?
    Mr. Grumbles. We appreciate the decisions that are made in 
the appropriations process of the amount of funds. I think the 
Act contemplated no-year funds that could remain available 
until expended, but in the decisions made and the realities of 
the appropriations process, these funds are essentially two-
year limits.
    As was noted and I think everyone would agree, as was noted 
in our testimony, these are complex projects and they take some 
time. The key to sustainable projects is building the 
partnership up front and having local community support and 
also having the necessary technical information at these very 
complex sites. And so, we do run up against a lot of pressure.
    We want to streamline and accelerate cleanup projects, but 
one observation we have had in the five successful cleanup 
projects to date is that two-year time frame can be a real 
challenge. So that is an area that we agree there needs to be a 
discussion, and we look forward to having that discussion with 
you and your colleagues in other Committees.
    Mr. Boozman. Very good. Right now, it looks like the 
appropriators are appropriating about $35 million or so a year 
for these things. If all of a sudden they say that we were able 
to do the $150 million, what capacity do you have?
    How much money? With your staff and things like that, how 
much capacity do you have to actually do as far as 
appropriations?
    Mr. Grumbles. I know we are continuously looking into the 
future and what is in the pipeline. I think we are looking at 
nine projects, potential projects, adding to the five that we 
have seen great success with.
    In terms of the capacity, how quickly we could move towards 
those, it depends on a variety of things.
    I would just say we know there is a tremendous need out 
there. We also know that an authorization level like $150 
million is a very significant one that I think we would need to 
work with you on getting a more specific answer in terms of the 
timing and the capacity to actually make use of that type of 
funding in the near term.
    Do you want to add anything to that? Okay.
    Mr. Boozman. I think that is all I have right now. Thank 
you, Madam Chair.
    Ms. Johnson. Thank you, Mr. Boozman.
    Mr. Hall.
    Mr. Hall. Thank you, Madam Chair and thank you, Mr. 
Boozman, our Ranking Member, for holding this hearing.
    Mr. Grumbles, I just wanted to ask you. It is good to see 
you again, sir.
    I am just looking for clarity, myself. Out of the 31 Areas 
of Concern, how many individual sediment remediation projects 
are located wholly within the United States?
    Mr. Grumbles. Go ahead, Gary.
    Mr. Gulezian. I can respond to that, Congressman Hall.
    There are approximately 70 sites that have contaminated 
sediments. Of the remaining 30 Areas of Concern on the U.S. 
side of the border, and some of those are jointly shared with 
Canada, each and every one of them has a contaminated sediment 
problem of one kind or another.
    Mr. Hall. So where are those 70, approximately 70 sites in 
the process?
    What I am asking, I guess, is that the 5 sites that are 
listed in written testimony are 5 of the 70, not 5 of 31. Is 
that correct?
    Mr. Gulezian. Right, that is 5 of the 70, not 5 of the 31.
    Mr. Hall. Also, Administrator Grumbles, I hear you. I 
didn't see it in your written testimony. I thought you said you 
estimated cost to clean up, to remediate all of the 
contaminated sites at a billion dollars, roughly. Did you say 
something like that?
    Mr. Grumbles. I said it could be more than a billion, but 
we are looking at a cost in excess of a billion dollars.
    Mr. Hall. Okay. Well, it doesn't faze me when you are 
talking 85 percent of the fresh water of the United States and 
20 of the fresh water in the world. I compare it to $12 billion 
a month in Iraq. That is how I calculate things nowadays in my 
own mind to determine national priorities, but anyway that is 
getting off topic a little bit.
    I wanted to ask Lieutenant Governor Cherry. First of all, I 
guess, one of the recommendations of the GLRC (Great Lakes 
Regional Collaboration) was to encourage clean disposal and 
treatment technologies. What are some of the best technologies 
in your mind that have come out of this?
    Lieutenant Governor Cherry. Congressman, I am not an expert 
on that.
    Mr. Hall. Do you want to hand it off to the EPA?
    Mr. Grumbles. The question is what are some of the 
promising technologies?
    Mr. Hall. Yes. The GLRC recommended encouragement of clean 
disposal and treatment technologies. Outside of different kinds 
of dredging, is there anything else that has surfaced?
    Mr. Gulezian. There are a number of approaches that we have 
looked at over the years in terms of innovative approaches. 
There are different kinds of dredging that can be done and, as 
part of the Legacy Act, we have experimented with different 
kinds of hydraulic dredging which are more efficient and do a 
better job of scavenging the contaminated sediments. That is 
something that we have worked on at the Ashtabula River 
project.
    There are also other possibilities out there in terms of 
things like carbon mats that can absorb some of the toxic 
substances, where you might be able to have a more efficient 
cleanup that would actually not involve dredging at all. So 
there are a number of possibilities that we evaluate each and 
every time we do a project under the Legacy Act.
    Mr. Hall. A carbon mat?
    Mr. Gulezian. Right. This would be like activated charcoal 
built into a mat that you would place over the contaminated 
sediments that would prevent those sediments, to the extent 
that they are organics, from leaching out into the water. So it 
is something that can supplement an existing cleanup.
    Mr. Hall. As we have examined at length in this Committee, 
the Supreme Court's rulings in the Rapanos and Carabell cases 
have created the potential for serious delays in issuing Clean 
Water permits and protection activities. What impact is this 
having or is this having an impact on the Great Lakes 
protection and the ability to meet the goals of the program?
    Mr. Grumbles, do you care to comment?
    Mr. Grumbles. Sure. Yes. I would say that one of our first 
priorities in the Great Lakes Regional Collaboration is on 
wetlands, and that is to restore, improve or protect 200,000 
acres within the Great Lakes ecosystem. For 100,000 acres, the 
Federal agencies have stepped up to the plate and said we are 
going to do that.
    We have made progress. We are at about 62,000 acres of 
restoring, improving or protecting, and that has not been 
hampered by the legalities of the Supreme Court decision. It 
has been more of the Federal agencies all focusing in, as was 
envisioned in the Great Lakes Regional Collaboration, and 
saying what tools can you use to really make progress. We look 
forward to working with the States on the other 100,000 acres.
    Congressman, frankly, when you do get into the 
jurisdictional complexities, what we are doing is we are 
surveying the regions and the Corps district offices of what 
experiences are they finding on the ground when it comes to 
that significant nexus analysis and the various tests that were 
laid out in that Supreme Court decision. We will be happy to 
provide the Committee with our observations or insights from 
that as we continue to use that guidance.
    Mr. Hall. That would be helpful. Thank you.
    My time is up, but I want to thank you for the work that 
you are doing, and I hope that we can provide resources for you 
to do more of it.
    As a Representative from New York State which is connected 
to the Great Lakes by the St. Lawrence seaway and, of course, 
bounding Lakes Ontario and Erie and the Hudson River which I 
represent a district from, which is connected by the Erie Canal 
and Champlain Canal to the Great Lakes, I am happy to see this 
rising high on our to-do list. It is certainly important that 
we protect this great resource.
    Thank you, Madam Chair. I yield back.
    Ms. Johnson. Thank you very much, Mr. Hall.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Madam Chair, and thank you very much 
for having this hearing. This issue is a very important one to 
me and I think to most of the people around the Great Lakes.
    I thank Governor Cherry for taking the time to be here and 
speak on it. We spent many years together in the Michigan 
Senate and got a lot accomplished together, even though he is 
an outrageously leftist Democrat and I was an outrageously 
conservative Republican. You know that is not true from knowing 
me, but at any rate we worked very closely together on a number 
of these issues.
    It is good to see you again, John. Thank you for being here 
and thank you for your kind words.
    I also apologize for being late. I was speaking at another 
meeting. I would just ask that my opening statement be entered 
into the record. Without objection, I hope you will do that.
    The first version of the Legacy Act, which is the version 
that we have been discussing here, has been fantastically 
successful. I normally don't brag about my work to that extent, 
but I keep hearing it from the people around the Great Lakes. 
They are extremely pleased with the Act.
    I think what has made it so successful is that we designed 
it to be a combined Federal, local, environmental and State 
project with funding coming from all the parties in some fair 
and equitable arrangement that we developed. That is really 
been a strong inducement to the business community and to the 
locals and to the environmental groups to really promote the 
program.
    We could have, in fact, accomplished much more had the 
Congress allocated the funds. The President, to his credit, and 
the EPA advocated full funding every year that the bill has 
been in effect. Unfortunately, the Congress cut back the 
funding every year.
    But, in spite of that, I have been told by numerous 
individuals who have worked in Superfund and have worked in 
this that this is by far the best cleanup activity that they 
have ever engaged in because everyone worked together, everyone 
knew what the parameters were, we managed to keep most of the 
attorneys out of it, and it would just set up a structure where 
all the parties could work things out together and get the job 
done.
    I really appreciate your cooperation and work in that.
    In response to the comments about the increasing funding, I 
have no doubt that the Congress will appropriate the money that 
can be usefully used. I think setting the goal at an 
authorization of $150 million is imminently reasonable
    I know the Congress will not throw money at the problem 
unless it can be used effectively. So I am not worried about 
increasing the authorization since I know the appropriators 
will allocate the appropriate money.
    I think it is important to increase it because we are 
poised in a number of areas in this Nation to rapidly go ahead 
with cleanups. Local communities and States are rounding up 
funding to be able to deal with. Environmental communities are 
excited and ready to go, building local support. So I think it 
is imminently reasonable to increase the authorization, and I 
hope the appropriations will match the local enthusiasm and 
energy, both of the local and State Governments.
    I will defend a $150 authorization. I don't think we can go 
wrong with that. Obviously, we won't spend it all if it is not 
all needed, but I think it is a good way to go.
    I just thank the State of Michigan for its work. As you 
mentioned, there are four sites there. I visited several of 
them, and the cleanup went amazingly rapidly.
    I say this after having spent a lot of time on the county 
level working with Superfund and on the State level working 
with Superfund. I was just astonished that in the space of two 
years, we could clean up sites that under the Superfund Act 
would have taken seven years to clean up. So I think this is an 
effective program.
    I believe Mr. Oberstar and I will be introducing a bill on 
this fairly shortly, and I hope we can have a lot of support 
from our colleagues and from people across the Nation.
    The real key, as has been pointed out by our witnesses, is 
the cooperative aspect of it. I recall when we had our first 
hearing on the original bill, Congressman Duncan was the Chair 
of the Committee at the time. We had testimony from the Federal 
Government that this was a good program, testimony from State 
and local governments that it was a good program, testimony 
from the business community that it was a good program and 
testimony from the environmental community that it was a good 
program.
    Congressman Duncan turned to me after the hearing was over, 
and he said that is the first time in his 20 years of 
experience in the Congress that he has ever had all of those 
groups agree on something. He said, we will report this bill to 
the floor immediately.
    I am very pleased that that cooperation has continued and 
that all of you involved, not just this panel but the next 
panel as well, have worked on this so well and made it such a 
success. I thank you for that.
    I yield back the balance of my time.
    Ms. Johnson. Thank you, Dr. Ehlers.
    Dr. Kagen.
    Mr. Kagen. Thank you, Chairwoman Johnson and Ranking Member 
Boozman for being here and for having this hearing.
    I thank you for coming to give your testimony that I 
missed. I was on the House floor, giving a presentation about 
our oil crisis.
    My question has to do not just with the cooperation, which 
I appreciate, but the fact that we still have 30 Areas of 
Concern that have not been remediated. I am wondering if you 
could, Mr. Grumbles, clue me in as to why it is taking so long.
    I think we have cleaned up one site, Oswego, and yet there 
are 29 others or 30 others remaining.
    Mr. Grumbles. A priority for us, a goal for us is working 
with all our partners to clean up those sites, but I am going 
to turn to Gary Gulezian as the Director with the most 
knowledge on the specifics of that, Congressman.
    Mr. Kagen. Thank you.
    Mr. Gulezian. The biggest barrier to cleaning up the Areas 
of Concern is cleaning up contaminated sediments. The only area 
that we have delisted is the Oswego area, and the Oswego area 
was the only area where we don't have a contaminated sediment 
problem.
    These problems are complex. They are expensive to deal 
with. Even once you get the contaminated sediments cleaned up, 
before we can redesignate the areas, we have to see the 
beneficial uses come back. For example, we need to have healthy 
fish and wildlife populations there amongst other things before 
we could delist an area, but the primary barrier is cleaning up 
contaminated sediments.
    Mr. Kagen. Is there a ranking order of locations that you 
are going to take on? Is there a certain order in which you are 
attacking these and, if so, where does the Menomonee River and 
Fox River stand on your list?
    Mr. Gulezian. We are trying to take on all of them at once 
with all of the authorities that are available. The work that 
we are doing at the Areas of Concern is work that is shared by 
the local communities, the States and the Federal Government 
and, within the Federal Government, there are a number of 
programs that can be brought to bear.
    For example, at the Fox River, the approach that we are 
using is the Superfund law. As you know, that has been 
progressing. It is going to be a very, very significant cleanup 
there, and we are really looking forward to that one moving 
forward.
    We had been working in the Menomonee area with the local 
committee that is working at the Area of Concern to define the 
problem and to define the needs for cleanup there, and we have 
similar activities going on at each and every one of the 30 
Areas of Concern across the Great Lakes.
    Mr. Kagen. On a related matter, the Brownfields program has 
a relatively high number of applications that are ready to go. 
They are on the shelf. Is there a hang-up there?
    Is it the funding? Is it appropriations?
    Mr. Grumbles. In terms of prioritizations, again, as Mr. 
Gulezian mentioned, for us on the Areas of Concern, we follow 
the statute which lays out remediation of contaminated sediment 
and then goes through a variety of specific factors in the 
statute itself about innovative technologies and other 
approaches.
    When it comes to the Brownfields program, Congressman, I 
would say the best thing to do is for us to commit to get back 
to you with our folks back at the agency who really have more 
knowledge of the Brownfields program than we do.
    But, Congressman, just like the Brownfields program, the 
contaminated sediments program under the Legacy Act as well as 
the proposed legislation on Good Samaritan cleanups at hard 
rock mines, which is something we hope the Committee will act 
on, are three examples of environmental progress by taking 
innovative, collaborative approaches.
    In terms of the prioritizations, we think it is an 
important role for Congress. In the Legacy Act, they laid it 
out, and we will work with our partners.
    A key part of that is finding projects where there is the 
local community support which is often reflected in their 
ability to provide a cost share, but it is more than that. It 
is having the buy-in from the community. That is why we feel 
the Legacy Act and the Brownfields program and those Good 
Samaritan cleanups are all very positive and promising programs 
for environmental restoration.
    Mr. Kagen. Thank you for your answers.
    I ask that my opening statement, which I was unable to 
deliver, could be placed into the record.
    I yield back.
    Ms. Johnson. No objection; all opening statements can be 
placed in the record
    Mrs. Miller.
    Mrs. Miller. Thank you very much, Madam Chair.
    I certainly look forward to working with all of my 
colleagues on both sides of the aisle to make sure that we do 
reauthorize and hopefully appropriate $150 million for this, 
this year. I think it is critically important.
    I am going to follow up a little bit. Mr. Kagen was asking 
about some of the sites in his district, and I would also like 
to, just trying to get a handle on where all of these are and 
how you have prioritized the various sites.
    I know in my neck of the woods the St. Clair River and the 
Clinton River, the Saginaw Bay, the Saginaw River are all AOCs. 
I am just wondering. I don't think they are in the nine sites 
that you talked about, Mr. Grumbles, but does anyone have any 
information on where they may fall and if you are not having 
much success because of the lack of match available or what is 
happening there?
    Mr. Grumbles. Gary, do you want to?
    I know we are going to want to commit to you to get back 
with you with far more specific information on this, but if you 
want to add on.
    Mrs. Miller. Okay.
    Mr. Gulezian. No. We can get back to you with specifics on 
those sites
    Mrs. Miller. Okay. I appreciate that. I am, obviously, very 
interested in that and want to assist in any way that I can to 
be a conduit to assist with that.
    Mr. Grumbles, you mentioned about how sedimentation 
remediation needs to be accelerated, and I certainly do agree 
with that. I think we all agree with that.
    Hopefully, we have enough places to put all of the 
sedimentation as we are remediating. I just raise that, not to 
get too much in the weeds on this, but as I mentioned the 
Clinton River. The Confined Disposal Facility for the Clinton 
River, the CDF for the Clinton River, because of dredging that 
has occurred and we have been all earmarking to get dredging 
projects because of the historic low water levels, et cetera.
    The dredging that is going to occur on the Clinton River 
this year will essentially fill, as I understand it from the 
Corps of Engineers, our district director there, fill the CDF 
for the Clinton River. So I am just wondering how.
    The EPA and the Corps of Engineers, are they working with 
the States to identify disposal facilities if we do get all of 
these funds and then we have nowhere to put this? How is that 
all working?
    Mr. Grumbles. I am going to ask Gary Gulezian to respond to 
that.
    I know from my own observation so far, over the last five 
or six years since the Legacy Act or since 2004 when 
congressional funding began to be provided, and I can tell you 
that we have been working with the Corps closely on that issue 
of Confined Disposal Facilities and capacity for remediation. I 
know it is an issue that is going to depend on the site.
    Mrs. Miller. I appreciate that, and I did want to raise 
that because that is one that I happen to be familiar with 
because it is literally in my back yard, but there may be other 
areas like that. So we do need to be, I think, working 
cooperatively to recognize this if we are going to increase the 
funding.
    You can get back to me on that as well.
    Mr. Grumbles. Okay.
    Mrs. Miller. Let me go on to my next question since I don't 
have too much time here.
    We have talked today about the cost share. It is no secret 
that the State of Michigan is facing unbelievable economic 
challenges. The Lieutenant Governor mentioned about the Clean 
Michigan bond which passed overwhelmingly in Michigan.
    I am not even sure how much money we have left there. I 
know there is a phased-in area as the drawdown on some of the 
funding. I am not sure how much we have left in that, but I do 
know that it is difficult, obviously, for the State and the 
local municipalities, counties, what have you to come up with a 
cost share.
    We saw this most recently with the water quality monitoring 
system, actually. This Committee had a field hearing, I 
mentioned, in Port Huron in my district last week, and we 
talked about the initial expense of the water quality 
monitoring system where we were able to get Federal earmarks.
    We split it between two counties pretty equally. That was a 
60-40 match that the counties themselves matched. There has 
been money for maintenance, some of which was vetoed by the 
State, but I think was put back in.
    Everybody is concerned about the money, obviously. I just 
wonder if anyone has a comment about the appropriateness of the 
percentage of the match here. Is there some feeling that 
perhaps the Federal Government should take a look at this 
again?
    In the State of Michigan, whatever we clean up is not just 
advantaging us. It is advantaging the entire Great Lakes Basin. 
We don't want to not be able to have a dime to make a buck. So 
I am not sure. Perhaps we should look at the formula.
    Lieutenant Governor Cherry. Congresswoman, that is a good 
question. I mean the Great Lakes Commission, which represents 
the region, is suggesting that the match be dropped so that in 
fact we can stimulate more cleanups.
    You are right about the economic difficulties, budget-wise, 
to find the extra dollars. In spite of that, we should 
understand as well that throughout the Great Lakes Region and 
the St. Lawrence that local and State Government and provincial 
government have spent $15 billion a year on Great Lakes 
remediation. So there is clearly a will to engage here.
    I believe that if, for instance, there is more money 
available in the form of an annual authorization or 
appropriation, people will think of innovative ways to get 
there, such as the bond proposal that we used. We have about 25 
million left, I believe, and we are contemplating renewal. So 
we understand that the Great Lakes issues of remediation are a 
long-term effort and that we need to be in position to engage 
in the long term.
    I think what ultimately we all need to do--local, State and 
Federal Government--is step up because it is an enormous 
problem. It is an important issue.
    These are problems that emerged in the time of 
industrialization, and much of it is the result of the Great 
Lakes Region being an economic engine for the Nation and an 
arsenal of democracy for the Country. And so, these are 
problems we all created, and we all need to remediate.
    We believe that you need additional money but also the 
match should drop.
    Mrs. Miller. Lieutenant Governor, has the Commission 
actually advanced a recommendation, a percentage of what they 
would like to see the match drop to?
    Lieutenant Governor Cherry. Twenty-five percent.
    Mrs. Miller. To 25, 75-25?
    Lieutenant Governor Cherry. Yes, correct.
    Mrs. Miller. Okay.
    Mr. Grumbles. Congresswoman, I know that time is short, but 
I just wanted to add. Almost it is a statement of the obvious, 
but there is also intense competition in the Federal 
appropriations process. The importance of having a cost share 
that helps to stretch the Federal dollar as far as possible is 
important. So we look forward to having further discussions 
with the authorizing Committees as well as the appropriations 
Committees.
    I think that one very important aspect of the whole debate 
is to ensure that more information is made available of the 
State and local economic benefits of cleanup. The more 
communities, the more all of us see the value of cleanup and 
how it stimulates economic benefits, that can help bring more 
parties to the table to help meet the 65-35 share.
    There is some degree of flexibility in our regulation, but 
essentially we are operating off of the statutory framework 
that you and others have been involved in. So we look forward 
to further discussions with you and other Members on that 
issue.
    Mrs. Miller. Yes, I appreciate that. I think everybody does 
recognize the economic advantages of the cleanup of the Great 
Lakes.
    I guess I am somewhat embarrassed to still see the huge 
amounts of combined sewer overflows going into the Great Lakes. 
On the other hand, the cost to the locals to right-size the 
inadequate underground infrastructure is mindboggling. By some 
estimates, in southeast Michigan alone, $54 billion just to fix 
what we have which is not particularly inherent to Detroit. All 
the old industrial cities are dealing with that kind of thing.
    There is enormous need, that is for sure, and never enough 
resources.
    I know my time is expired. Thanks very much, Madam Chair.
    Ms. Johnson. Thank you very much.
    Are there any other questions?
    Then we will thank the first panel and appreciate your 
coming for testimony.
    We welcome the second panel: Mr. Cameron Davis, President 
and CEO of the Alliance for the Great Lakes of Chicago, 
Illinois; Ms. Emily Green, Director of the Great Lakes Program, 
Sierra Club, Madison, Wisconsin; and Mr. George Kuper, 
President of the Council of Great Lakes Industries, Ann Arbor, 
Michigan.
    Mr. Davis, you can begin your testimony.

TESTIMONY OF CAMERON DAVIS, PRESIDENT AND CEO, ALLIANCE FOR THE 
GREAT LAKES; EMILY GREEN, DIRECTOR, GREAT LAKES PROGRAM, SIERRA 
 CLUB; AND GEORGE H. KUPER, PRESIDENT, COUNCIL OF GREAT LAKES 
                           INDUSTRIES

    Mr. Davis. Well, good morning and thank you, Chairwoman 
Johnson and Ranking Member Boozman and Members of the 
Subcommittee.
    I am Cameron Davis, President and CEO of the Alliance for 
the Great Lakes. We are the oldest citizens Great Lakes 
organization in either the U.S. or Canada.
    I am also representing the Healing Our Waters-Great Lakes 
Coalition as one of their co-chairs, representing roughly 100 
or more organizations from around the Great Lakes Basin who are 
vitally concerned about this issue.
    With 90 to 95 percent of the Nation's fresh surface water, 
the Great Lakes could cover the United States in roughly nine 
to nine and a half feet of water, the continental United 
States, but their size belies their fragility.
    Because they are relatively closed ecosystems, they do not 
flush like rivers. What goes in, tends to stay in. That is true 
of legacy pollutants, persistent toxins that remain at the 
bottom of industrial harbors which are a legacy of the 
Midwest's past.
    The result of this is contamination that can continue to 
circulate through the food chain from fish to people especially 
children, women and other sensitive populations. The 
contamination can also suppress property values as we heard 
before.
    Since more than 30 toxic hot spots were listed on the 
cleanup list of Areas of Concern more than 20 years ago, only 1 
has been removed from the list. The longer we wait to remediate 
these Areas of Concern, the more expensive cleanups get and the 
more they threaten the health of our children and families. 
Simply put, it is time to act.
    We consider revitalizing our Nation's waters through the 
Clean Water Restoration Act, combating invasive species and 
other efforts to be important in addition to reauthorizing the 
Great Lakes Legacy Act which has, as was mentioned before, a 
proud history of bipartisan and multi-stakeholder support. 
Reauthorizing this Act will help greatly.
    Since Congressman Oberstar and Congressman Ehlers 
introduced the first generation of the Act several years ago, 
the Legacy Act has been extraordinarily helpful. But several 
years of experience under the first generation of the Legacy 
Act shows that there are ways we can get more mileage out of 
the law.
    Several years ago, roughly 1,500 stakeholders from around 
the region including agency officials, elected officials, NGO 
representatives and businesses put together this plan of attack 
for helping to clean up and restore the Great Lakes. One of the 
series of recommendations that came out of this Great Lakes 
restoration collaboration strategy was that we do want to see 
the Act boosted in terms of its authorization.
    We want funds to go for aquatic habitat restoration. It is 
not enough to just clean the contaminants out. We need to make 
sure that these Areas of Concern are fully restored with 
habitat so that they function again.
    We want to see public information and education be part of 
the funding effort as well. Research shows that when there are 
coordinated, proactive public education efforts that precede 
cleanups, those cleanups can be facilitated and accelerated, 
which I know is our goal through much of the reauthorization of 
the Legacy Act.
    Enhancing matching opportunities by allowing potentially 
responsible parties to contribute and dropping the non-Federal 
cost share to 25 percent, which we heard a great deal about 
earlier from the first panel.
    Focusing on sediment cleanups is a top priority. It is 
incredibly important. Removing the maintenance of effort 
requirements, eliminating the need for exclusive Federal agency 
project implementation so that contractors can execute cleanups 
with agency oversight and extending the life of Legacy Act 
funds beyond two years which, as we also heard today, is a time 
frame that is difficult for many of these complex cleanups to 
meet.
    In conclusion, we urge you to act quickly to pass the next 
generation of the Great Lakes Legacy Act to address these 
recommendations.
    Thank you for your efforts so that we can ensure that we 
leave a legacy of health for our families in the future, not a 
legacy of pollution.
    Ms. Johnson. Thank you very much, Mr. Davis.
    Ms. Emily Green.
    Ms. Green. Good morning, Madam Chair and Members of the 
Subcommittee. Thank you very much for giving me the opportunity 
to speak with you today.
    The Sierra Club is the Nation's oldest and largest 
grassroots environmental organization with over 1.5 million 
members and supporters nationwide.
    I am here in Washington today to ask for your help in 
addressing the toxic pollution in the Great Lakes.
    Thanks to the leadership of Congressman Ehlers, this 
Committee and others, the Great Lakes Legacy Act of 2002 has 
been an extraordinarily successful program that has allowed us 
to clean up toxic sites despite being under-funded.
    I am here to ask you to pass legislation reauthorizing the 
program this year, increasing the authorized funding level and 
making some minor policy changes to increase its effectiveness. 
Reauthorizing this program is one of the major recommendations 
of the Great Lakes Regional Collaboration Strategy which, as 
you have heard, is a comprehensive blueprint for the long-term 
restoration and protection of the Great Lakes.
    It is critically important that this legislation move this 
year to avoid gaps in the implementation of the program and to 
allow us to more effectively address one of the worst problems 
that our region faces. The longer we wait, the more difficult 
and expensive this problem will be to solve.
    As you noted in your introduction, Chairwoman Johnson, 
contaminated sediments in the Great Lakes are linked to 
numerous and very well documented human health and ecological 
impacts as well as economic impacts. Really, it doesn't have to 
be this way.
    We know how to clean up these sites, and we can gain much 
by doing so. A recent Brookings Institution study found that 
cleaning up toxic pollution in the Great Lakes will directly 
raise property values by 12 to 19 billion dollars. We simply 
need the funding and the political will to act.
    Before the Great Lakes Legacy Act was passed in 2002, we 
attempted to clean up these sites through a variety of 
programs, most of which were designed for other purposes and 
none of which were adequately funded. This approach, in short, 
did not work.
    In 2005, the U.S. Policy Committee for the Great Lakes 
identified 75 remaining contaminated sediment sites in U.S. 
Areas of Concern.
    I believe that reauthorizing, expanding and, most 
importantly, funding the Great Lakes Legacy Act is the single 
most effective and important thing we can do to advance the 
cleanup of these sites.
    The program has arguably been the most effective 
contaminated sediment cleanup tool that we have had to date, 
even though it has been chronically under-funded and some of 
its provisions have created unintended obstacles to cleanup. 
Despite its limited funding, it has removed almost two million 
pounds of toxic contaminants to date and has completed cleanups 
that otherwise languished for years.
    As I noted previously, reauthorizing the Act is also a top 
recommendation of the Great Lakes Regional Collaboration 
Strategy. The strategy, as you probably know, contains a number 
of recommendations that are important to the Great Lakes, and 
we are implementing those recommendations in stages.
    For 2008, our top legislative priorities are to reauthorize 
the Great Lakes Legacy Act, pass legislation that prevents the 
introduction of aquatic invasive species and pass the Clean 
Water Restoration Act. We appreciate the Committee's interest 
in all of these issues.
    The recommendations to expand and reauthorize the Legacy 
Act are the product of a strong collaboration of industry, 
environmental organizations, agency staff and scientists. We 
are all in agreement on these recommendations. We all believe 
that Congress should reauthorize the Legacy Act this year and 
make the policy changes that have been discussed by both of my 
colleagues here today.
    In summary, and I am happy to talk about these in more 
detail in questions, these would be:
    To increase the authorization level to $150 million per 
year;
    Add a habitat restoration component;
    Clarify the intent of the Act to allow potentially 
responsible parties to contribute to the non-Federal share;
    Ensure support for public education and outreach as part of 
the cleanup process;
    Remove the maintenance of effort requirements;
    Allow the disbursal of Legacy Act funds to non-Federal 
contractors;
    Reduce the local cost share to 25 percent; and,
    Extend the life of Legacy Act funds beyond two years.
    In our view, these improvements are essential to cleaning 
up these sites in the Great Lakes.
    In closing, I urge you to reauthorize and expand the Great 
Lakes Legacy Act this year and to build support for the full 
appropriation of funds. This is one of the most important 
things that Congress can do to this year to implement the Great 
Lakes Regional Collaboration Strategy and to protect the 
irreplaceable treasure that is the Great Lakes now and into the 
future.
    Thank you very much for your time and for inviting me to 
speak to you today.
    Ms. Johnson. Thank you very much, Ms. Green.
    Mr. Kuper.
    Mr. Kuper. Good morning, Madam Chair, Members of the 
Subcommittee. Thank you very much.
    My name is George Kuper. I represent three dozen large 
Canadian and U.S. companies focused on sustainable development 
policies in the Great Lakes Basin, and it is a privilege to be 
here.
    We are here in the spirit of an old industrial operating 
principle, namely that of continuous improvement. Industry has 
really appreciated the opportunity to work with U.S. EPA Region 
5 and other stakeholders such as those sitting on my right in 
the region, both on the specific projects that you have heard 
about and those that are in the pipeline; but also on 
identifying ways to improve the Great Lakes Legacy Act itself 
with the consistent and overriding objective of reducing 
contamination to the Great Lakes from contaminated sediments.
    To that end, I would like to emphasize five improvements 
among the ten that we are here collectively representing that 
are more detailed in my submitted testimony.
    The first is the eligibility criteria for non-Federal 
match. The original intent, which was clearly expressed in the 
statute, was to allow Potentially Responsible Parties, PRPs, to 
participate in the non-Federal share. The implementation policy 
that has been pursued has severely curtailed the ability of 
PRPs to participate.
    Our recommendation is that you affirm that PRPs are 
eligible to participate, using the added value criteria 
proposed by the Great Lakes Regional Collaboration.
    Secondly, pilot and demonstration projects: Innovative 
pilot or demonstration projects that could lead to more 
effective or efficient remediation techniques for contaminated 
sediment are not now being funded because of the perception 
that these are ``research,'' not projects, and no research 
funds have been appropriated.
    Our suggestion is that you give discretion to program 
administrators to fund pilot or demonstration projects as 
projects, not research.
    Thirdly, the pick and stick rule, a wonderful name for an 
old rule administered by the OMB: Pick and stick prevents using 
two Federal sources of funding on the same project at the same 
time. It is raised as a barrier to using Great Lakes Legacy Act 
funds at Superfund sites even where little progress is being 
made under Superfund due to the lack of viable PRPs.
    We think the application of the pick and stick rule yields 
counterproductive results, precluding or significantly delaying 
cleanups. This 1800s rule does provide an option for co-funding 
as long as there is express statutory authority to do so.
    Our recommendation is that you need to remove the 
application of the pick and stick to Great Lakes Legacy Act 
projects in the reauthorizing legislation.
    A couple of administrative improvements, seemingly small 
but important, that you have heard others mention:
    Maintenance of effort requirements, inappropriate because 
sediment cleanup costs often vary widely year to year and 
excellent projects are being disqualified because larger 
expenditures happen to occur in a previous year. Attempts to 
work around the maintenance of effort requirements may force 
delays or detrimental changes to proposed remedial projects.
    Our recommendation is the maintenance of effort requirement 
should be removed from the legislation.
    Lastly, project implementation, currently the Great Lakes 
Legacy Act requires exclusive Federal agency project 
implementation which precludes disbursal of funds to other 
entities. This is inefficient. It is really inefficient to have 
multiple contractors onsite because of the limitations of 
disbursal funds.
    Disbursal to non-Federal contractors is allowed under the 
Water Resources Development Act, and the proposed fix utilized 
the WRDA approach. Our recommendation is that you should allow 
disbursal of funds to other entities.
    In conclusion, our recommendation are, obviously, that you 
reauthorize the Great Lakes Legacy Act and do so in a timely 
fashion so there is no interruption of the program and do so 
for five years at $154 million per year. That is $150 million 
for projects, $3 million for research and $1 million for public 
information and participation programs.
    We hope that you will take the opportunity in this 
reauthorization to correct the inefficiencies and issues with 
implementation of the Great Lakes Legacy Act.
    Thank you for your time and attention to this important 
program.
    Ms. Johnson. Thank you very much for your testimony.
    We will begin the first round of questioning now.
    I would like each of you to comment on this question. There 
has not really been that much accomplishment in attempting to 
clean these hazardous areas, the waste sites, and I would like 
you to give me your opinion of the reason for this.
    Is it money? Is it structural changes that are needed in 
the law or should EPA implementation of the law be improved? 
Tell me what you think the handicaps might be.
    Mr. Davis. Thank you, Chairwoman Johnson.
    I do think that whether or not much has been accomplished 
is relative. We have a lot of work that has been done under the 
Legacy Act that otherwise wouldn't have been done, which I 
think is very commendable.
    That being said, we still have a long, long way to go. It 
is a little bit like climbing a mountain and seeing that you 
have a long way to go and not really appreciating where you 
have been. So we do have a long way to go on that.
    Why? Why do we have so much further to go? Why haven't we 
made as progress? I do think funding is a key piece of that 
answer.
    Many of the Great Lakes States are struggling. You heard 
from Lieutenant Governor Cherry earlier today that Michigan has 
the Clean Michigan Initiative. Many of the other States don't 
have that kind of bonding for these kinds of purposes.
    So while that has put Michigan in a decent position, many 
of the other States have not had the luxury of matches to be 
able to reach that 35 percent. I do think that that is one 
thing that could be addressed.
    You mentioned the structure of the Act. Certainly, we think 
that many of the recommendations that we have made today will 
help accelerate the pace of these cleanups.
    I do know this: Since the list was created, it is 
unacceptable that we continue to make as little progress as we 
have. We have done some good work. We need to speed that pace 
up.
    Ms. Johnson. Thank you very much.
    Ms. Green?
    Ms. Green. Thanks for asking that question.
    I think I would agree with Cameron that we actually have 
made some good progress, and I take sites like Ruddiman Creek 
as an example of a site that sat for years, and the local 
community had advocated for years and years and years for 
something to be done about this. The Legacy Act came along, and 
finally it is cleaned up, and lake salmon are now back in that 
creek.
    But why not faster? I would love it to see it go faster. I 
think there are three things, and I think it is really all of 
the things you mentioned.
    It is the lack of funding. The Act has been consistently 
under-funded, under-appropriated since it was started.
    The cost share, I think, is an issue in some sites, and it 
is hard to pinpoint because what you have is with the 35 
percent cost share you likely have communities that don't even 
apply for Great Lakes Legacy Act funds because they can't raise 
that cost share. So it becomes an unnecessary barrier to 
application.
    At least in the case of orphan sites, we ought to look at 
reducing that cost share.
    Then the administrative changes that you have heard all of 
us bringing up. Some of them small and I think were really not 
intended to be barriers like the maintenance of effort 
provision and the disbursal of funds to non-Federal 
contractors, but together they have really kept a number of 
sites from flowing through the process.
    I think if we could tackle those as part of the 
reauthorization, it would help make this Act and program more 
efficient.
    Ms. Johnson. Thank you very much.
    Mr. Kuper?
    Mr. Kuper. Madam Chair, there are probably eight or ten 
points that I would try to summarize for you.
    First is the eligibility of Potentially Responsible 
Parties. Were they able to participate in the cost share 
portion, you would have more projects.
    Use of project funds for pilot or demonstration projects: 
There have been several demonstration projects proposed that 
have not been accepted by the program administrator.
    The problem created by the pick and stick rule needs to be 
fixed so that we can spend Great Lakes Legacy Act money at 
Superfund sites.
    We need to drop the maintenance of effort requirements. 
That clearly has been a barrier to projects.
    We need to eliminate the current limitation that requires 
exclusive Federal agency project implementation. We need to 
have everybody in that project that can possibly make a 
difference.
    And, we need to use Legacy Act funds for the restoration of 
habitat. We ought to be prioritizing those funds for remedial 
projects.
    We ought to have a public participation program to make 
sure the public information that is getting out about these 
projects is in the spirit of the Act and the objectives we are 
all trying to work on.
    As Emily Green said, we need to have cost share that is 
more affordable, and we need more money in the program.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Thank you.
    I guess one of the things I don't quite understand is you 
just mentioned that we need more money in the program, but I 
don't understand, if you reduce the cost share significantly, 
how that gets more money in the program.
    Ms. Green. Well, I think we are talking about expanding the 
authorization pretty significantly to $150 million a year. So, 
despite a slight reduction in the cost share, there is still 
going to be more money to go around.
    Mr. Boozman. But if we did that, though. I mean ideally we 
would like to get as much Federal money as we can into the 
program. I am very supportive of that.
    As Mr. Grumbles said earlier, we have this problem, and we 
have many other problems that you all are dealing with as you 
mentioned earlier. The reality is there is a finite amount of 
money.
    If we get as much Federal as we can in there and with an 
authorization of $150 million when we have steadily crept up, I 
think, from $9 million to $35 million, and maybe we will get a 
little bit more this go-round. But the reality is unless you do 
an awful lot of legwork with the appropriators, it is not going 
to happen.
    I think the danger is you get a significant increase in 
authorization, you don't get a whole lot more money 
appropriated, you have a decrease in the cost share, and then 
you are not going to see a significant increase in your 
dollars. Does that make sense?
    Ms. Green. Absolutely.
    Mr. Boozman. That is the scenario that I see happening with 
this.
    Mr. Kuper. I understand the principle. The problem is we 
are trying to lower the barriers to getting projects up and 
underway, and it is clear that the local cost share is one of 
those barriers. So, to the extent that we would have more 
projects in the pipeline appealing for those Federal funds, it 
would hopefully make the appropriators more aware of what is 
possible with the Federal dollars.
    Does that make sense?
    Mr. Boozman. I understand, but again I think the scenario 
that I just said is more realistic in the sense that you raise 
the appropriation, you lower the cost share, some more dollars 
hopefully. Again, I am very supportive of that.
    But the reality is, as Mr. Grumbles said, who is I think on 
your side and trying to get as much money pushed in that 
direction as possible, you have a problem. You have less cost 
share, you have some more dollars, but I don't see how that 
really helps you a whole bunch.
    The other thing is you mentioned increasing or actually 
diverting some money to habitat. What percentage would you 
divert?
    We have cleanup money now. If we did habitat money, what 
percentage would you see going to habitat?
    Mr. Davis. I guess I will take a shot at that, Congressman 
Boozman.
    I don't know that we need to slate a percentage.
    What I would do is think of this more in terms of 
prioritization. First prioritization, get these contaminated 
sediment sites cleaned up. Get the pollutants out.
    To the extent that there is money left over, then look at 
helping to rebuild these aquatic habitats so that these sites 
function, so that the river fronts and harbor fronts can again 
be gathering places for these communities, so that fishing can 
help boost the local economies. In many instances, these are 
places that have been hit hard for decades as a result of this 
contamination.
    So I would think that more in terms of a prioritization 
scheme than slicing up a pie with various percentages that way.
    Mr. Boozman. Okay. Again, I would agree that the priority 
needs to be the cleanup.
    Again, politically, you have to think through this in a 
sense that what you don't want is communities that have 
powerful people that happen to be in Congress pushing habitat 
over the other. Those are the political realities that we deal 
with.
    So I would agree. I think cleanup is the major thing.
    Ms. Green, you mentioned an ecological tipping point with 
the Great Lakes. Could you comment and tell me what you mean by 
that, kind of your reasoning behind that?
    Ms. Green. Sure. Recently, sort of a collection of 
scientists around the Great Lakes were just looking at the huge 
number and variety of stressors on the ecosystem as a whole and 
released a report that suggested that the impact of all these 
stressors was pushing the ecosystem towards what they call a 
tipping point, towards the point at which it would no longer be 
able to respond to additional stressors. It would change 
permanently beyond the point of repair so that even if we made 
changes to kind of enhance restoration, clean up some of these 
sites, the ecosystem wouldn't respond.
    That poses a real threat in my mind because it would change 
the way that all of us are able to use and interact with the 
Great Lakes, whether it is for recreation or industry or 
drinking water, whatever it is.
    So I think it puts the onus on us to act quickly to sort of 
address some of these issues and increase the ecosystem's 
resiliency, its adaptability to stressors including climate 
change, by the way, which is going to have some sort of impact, 
before it is too late.
    Mr. Boozman. Very good.
    You mentioned pilot projects which, again, makes sense if 
you can do things more expeditiously, less expense. Do you have 
any specific things that you are thinking about in that regard?
    Mr. Kuper. There have been several that have been proposed. 
I would like the opportunity to tell you about them from an 
expert rather than myself. So I will get back to you with that.
    Mr. Boozman. That would be fine. If you could respond to 
that, that would be very helpful.
    Again, if we could come up with things that are more 
expeditious, I think we have certainly allocation in that way 
in the Highway Bill and some other things that has precedence.
    I want to compliment all of you. In reading your testimony, 
you seem to be working very, very together which is so 
important and really are a model. I wish that we could 
duplicate your united front with a lot of other things that we 
deal with. So thank you very much. I appreciate your testimony.
    I yield back, Madam Chair.
    Ms. Johnson. Thank you, Mr. Boozman.
    Dr. Kagen.
    Mr. Kagen. Thank you, Madam Chairman, and thanks for 
bringing up, Ranking Member Boozman, the idea of a united 
front. I like that idea across the aisle as well.
    Emily Green, thank you for being here. Thank you for your 
work with the Sierra Club, and I appreciate all of your 
testimony and the work you have done over the past number of 
years.
    In case someone is watching back home, you didn't change 
your last name to Green because of your belief in a green 
economy, did you?
    Ms. Green. I did not.
    Mr. Kagen. Can you be any more specific with regard to 
habitat restoration money, if any, with regard to the Legacy 
Act?
    Ms. Green. Sure. What we were really thinking about there, 
and this gets a little bit to your question as well, is 
limiting the type of habitat restoration work we would do to 
actually just restoration at the site of cleanup. So it is a 
relatively small expenditure compared to the price of cleaning 
up a contaminated sediment site, but it is what it would take 
to return the cleaned up site back to a functioning habitat.
    For example, in the case of Ruddiman Creek, and this was 
actually done by the local community, they replanted the creek 
bank with native grasses and plants and vegetation and got it 
back to a wetlands state which is what it was before it was 
dredged.
    Mr. Kagen. So you would like funding to be ramped up 
sufficiently to cover the complete restoration of the toxic 
site.
    Ms. Green. That is correct.
    Mr. Kagen. Or Area of Concern, as we call it.
    Ms. Green. That is correct.
    Mr. Kagen. Okay, so that is where that stands.
    Mr. Kuper, I want to thank you for delineating very nicely 
the different definitions or redefinitions of pick and stick 
and research.
    You know whenever a physician takes care of a patient, it 
is really research. You are getting a prescription, and it 
might or might not work. It might have some toxic effects. You 
could call that research, and it might not be covered by your 
insurance carrier.
    In much the same way, a pilot project. Have you got any 
pilot projects in mind?
    Mr. Kuper. As I responded earlier, the answer is yes, but I 
would like the opportunity to supply those to you subsequently 
because there are a lot of people involved in generating these 
pilot projects.
    Mr. Kagen. Right. You also highlighted the problem at the 
level of the toxic site where the local community might have 
some speed bumps or resistance to joining and applying for a 
program. If I heard you correctly, you really want everyone to 
be able to apply for this funding, is that correct, including 
the responsible parties?
    Mr. Kuper. That is correct, yes.
    Mr. Kagen. Is there any reason not to include them? Aren't 
we really rewarding them for their bad behavior?
    Mr. Kuper. This is not to replace their obligations. This 
is in addition to their obligations.
    Mr. Kagen. So you are focusing on the Area of Concern, on 
the environment itself and not those who may have caused the 
problem.
    Mr. Kuper. Correct.
    Mr. Kagen. Okay. In terms of local cost-sharing components, 
how does that factor into a community? Can you give me a 
specific example?
    Mr. Davis. I am not sure I understand the question.
    Mr. Kagen. Well, if the local community has to do cost 
sharing, can you give me an example where a community may not 
have applied for the money?
    Mr. Davis. I think we heard from Gary Gulezian earlier 
today that while that has not been a barrier up until right 
now, there is some anticipation that in the future that we 
could see sites that are not able to apply because of that cost 
share problem.
    Mr. Kuper. Congressman, the problem with the answer to your 
question, which is an excellent question, is that we don't know 
about a lot of the applications that don't become applications.
    Mr. Kagen. You can't measure what you don't see.
    Mr. Kuper. A negative, correct.
    Mr. Kagen. You can't manage what you can't measure. Is that 
about it?
    Mr. Davis. That is correct.
    We have heard anecdotally that Buffalo may fall into the 
kind of scenario that you are talking about, Dr. Kagen, where 
the cost share may be a speed bump.
    Mr. Kagen. Can you educate me about the participation or 
nonparticipation of non-Federal contractors?
    Mr. Kuper. A tough issue, it is a matter of whether or not 
you can spend money with an expert who may not be a Federal 
contractor on the same site that Federal contractors are 
working, and the answer is you can't under the current way the 
program is administered. It ought to be fixed.
    Ms. Green. So, say you have a dredge in the water that is 
being paid for by, say, the State of Minnesota under some other 
authority and there is a little bit of extra part of the site 
that could be part of the Legacy Act orphan share, you can't, 
right now, pay that contractor to do the cleanup. You have to 
bring in your own federally-funded dredge. It is inefficient, 
wasteful.
    Mr. Kagen. I understand. So, if it makes sense, it might 
not be happening. We should change the legislation so that it 
makes sense.
    In the area in which I am familiar with in terms of 
research projects with NIH or any other kind of funding, it is 
not uncommon to get funding from a number of different grantors 
to study the problem of cancer of asthma or any number of other 
problems. It is the question of commingling of the funds and 
making sure there is an accurate accounting of the money that 
Congress, I think, is most interested in.
    I want to thank you for your testimony.
    I yield back my time.
    Ms. Johnson. Thank you very much.
    With no other questions, we will consider the hearing 
finished, and we thank you very much for being here to testify.
    Mr. Davis. Thank you, Chairwoman.
    Ms. Green. Thank you.
    Mr. Kuper. Thank you for the opportunity.
    Ms. Johnson. The Committee is adjourned.
    [Whereupon, at 11:47 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2581.009
    
    [GRAPHIC] [TIFF OMITTED] T2581.010
    
    [GRAPHIC] [TIFF OMITTED] T2581.011
    
    [GRAPHIC] [TIFF OMITTED] T2581.012
    
    [GRAPHIC] [TIFF OMITTED] T2581.013
    
    [GRAPHIC] [TIFF OMITTED] T2581.014
    
    [GRAPHIC] [TIFF OMITTED] T2581.015
    
    [GRAPHIC] [TIFF OMITTED] T2581.016
    
    [GRAPHIC] [TIFF OMITTED] T2581.017
    
    [GRAPHIC] [TIFF OMITTED] T2581.018
    
    [GRAPHIC] [TIFF OMITTED] T2581.019
    
    [GRAPHIC] [TIFF OMITTED] T2581.020
    
    [GRAPHIC] [TIFF OMITTED] T2581.021
    
    [GRAPHIC] [TIFF OMITTED] T2581.022
    
    [GRAPHIC] [TIFF OMITTED] T2581.023
    
    [GRAPHIC] [TIFF OMITTED] T2581.024
    
    [GRAPHIC] [TIFF OMITTED] T2581.025
    
    [GRAPHIC] [TIFF OMITTED] T2581.026
    
    [GRAPHIC] [TIFF OMITTED] T2581.027
    
    [GRAPHIC] [TIFF OMITTED] T2581.028
    
    [GRAPHIC] [TIFF OMITTED] T2581.029
    
    [GRAPHIC] [TIFF OMITTED] T2581.030
    
    [GRAPHIC] [TIFF OMITTED] T2581.031
    
    [GRAPHIC] [TIFF OMITTED] T2581.032
    
    [GRAPHIC] [TIFF OMITTED] T2581.033
    
    [GRAPHIC] [TIFF OMITTED] T2581.034
    
    [GRAPHIC] [TIFF OMITTED] T2581.035
    
    [GRAPHIC] [TIFF OMITTED] T2581.036
    
    [GRAPHIC] [TIFF OMITTED] T2581.037
    
    [GRAPHIC] [TIFF OMITTED] T2581.038
    
    [GRAPHIC] [TIFF OMITTED] T2581.039
    
    [GRAPHIC] [TIFF OMITTED] T2581.040
    
    [GRAPHIC] [TIFF OMITTED] T2581.041
    
    [GRAPHIC] [TIFF OMITTED] T2581.042
    
    [GRAPHIC] [TIFF OMITTED] T2581.043
    
    [GRAPHIC] [TIFF OMITTED] T2581.044
    
    [GRAPHIC] [TIFF OMITTED] T2581.045
    
    [GRAPHIC] [TIFF OMITTED] T2581.046
    
    [GRAPHIC] [TIFF OMITTED] T2581.047
    
    [GRAPHIC] [TIFF OMITTED] T2581.048
    
    [GRAPHIC] [TIFF OMITTED] T2581.049
    
    [GRAPHIC] [TIFF OMITTED] T2581.050
    
    [GRAPHIC] [TIFF OMITTED] T2581.051
    
                                    

</pre></body></html>
